                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL




       SPECIAL REPORT ON THE AUDIT OF THE MANAGEMENT OF

          DEPARTMENT OF ENERGY CONSTRUCTION PROJECTS




The Office of Inspector General wants to make the distribution of
its reports as customer friendly and cost effective as
possible. Therefore, this report will be available
electronically through the Internet five to seven days after
publication at the following alternative addresses:

           Department of Energy Headquarters Golpher
                       gopher.hr.doe.gov

        Department of Energy Headquarters Anonymous FTP
                      vm1.hqadmin.doe.gov

 U.S. Department of Energy Human Resources and Administration
                           Home Page
                   http://www.hr.doe.gov/ig

 Your comments would be appreciated and can be provided on the
        Customer Response Form attached to the report.


             This report can be obtained from the
                   U.S. Department of Energy
        Office of Scientific and Technical Information
                          P.O. Box 62
                  Oak Ridge, Tennessee 37831




Report Number:   DOE/IG-0398                     Capital Regional
Audit Office
Date of Issue:   November 21, 1996                     Germantown,
MD 20874



       SPECIAL REPORT ON THE AUDIT OF THE MANAGEMENT OF
          DEPARTMENT OF ENERGY CONSTRUCTION PROJECTS
                       TABLE OF CONTENTS


                                                       Page

Introduction........................................     1

Background..........................................     1

Construction Planning
Process.............................................     2

Factors Affecting Construction Planning
Process.............................................     4

Improvements Initiated by
Management..........................................     5

Recommendation......................................     7

Management Reaction.................................     7

Attachment A - Summary of Individual Audit
Reports.............................................    11

Attachment B - Scope and Methodology................. 14
United States Government
Department of Energy
memorandum

         DATE:          November 21, 1996

  REPLY TO
   ATTN OF:      IG-1

  SUBJECT:       INFORMATION: "Special Report on the Audit of the
                 Management of Department of Energy Construction Projects"

               TO:      The Secretary

 BACKGROUND:

 The Department's Fiscal Year 1996 budget submission of about
 $18 billion included approximately $1.1 billion for
 construction projects. Ensuring that these construction
 projects meet bonafide existing or future Departmental needs
 becomes increasingly important as the Department's mission
 evolves and as it faces additional budget reductions. To
 illustrate, as recently as November 12, 1996, the Department
 issued the final Programmatic Environmental Impact Statement
 for the Stockpile Stewardship and Management Program. This
 statement, in which the Department examined the future of
 three weapons laboratories, four industrial plants and the
 Nevada test site, included recommendations regarding the
 sizing of these facilities. Specifically, the statement
 treated the significant downsizing of components of the Y-12
 Plant, Pantex, and the Kansas City Plant as preferred options.

 In 1994 and 1995, the Office of Inspector General issued
 several reports on the Department's construction activities.
 In these reports, we expressed concern about the construction
 planning process and questioned whether planned construction
 was necessary to meet mission needs. The reports also pointed
 out that the Department did not ensure that originally
 identified needs were still valid several years after a
 project's conception. While Department management indicated
 that it had addressed problems identified at specific
 locations, the magnitude of the Department's construction
 program indicated that continued emphasis in this area is
 warranted.

 The purpose of this report is to highlight issues dealing with
 opportunities to improve the planning process to avoid
 construction of unneeded or oversized facilities. By
 synthesizing the issues from prior reports, we hope to assist
 management in focusing its process improvement efforts to
 ensure that construction plans reflect emerging program and
 mission changes and budget realities.

 DISCUSSION:

 A specific objective of the Department's construction planning
process is to ensure that current and future construction
projects are needed to support the mission of the organization
and are cost effective. Past Inspector General reports showed
that (1) construction plans were not always updated when
mission needs changed, and (2) projects were not needed or all
alternatives were not fully evaluated prior to proceeding with
construction of new facilities.

In our effort to understand the general environment preceding
the actual start of new construction, we found that the
extended elapsed time between identification of need and
actual construction often encompassed significant program
and/or mission changes. This necessitates that field project
managers document mission needs and that they, along with
Headquarters program managers, use this information to avoid
expenditures for unneeded facilities. Our review of the
Fiscal Year 1996 budget validation process showed that the
field project manager was not required to indicate the extent
to which the mission need was reassessed. Without
documentation to clearly show that a continued need will exist
for ongoing or planned construction projects, higher level
management cannot evaluate this assertion of need.

To their credit, the Office of the Associate Deputy Secretary
for Field Management and the respective Headquarters program
and field offices had recognized that opportunities existed to
improve the construction planning process. The management
process for construction was being streamlined under
Department Order 430.1, Life Cycle Asset Management, which
will become effective when site specific performance measures
are established as part of the respective management and
operating or other prime operating contracts. Management also
advised us of other improvements that have been recently
implemented or planned such as the FY 1998 Project
Review/Validation Guidance and the Joint Program Office
Direction on Project Management.

We recommended that the Department emphasize the need for
effective evaluations by field project managers of the
Department's current and future mission needs as part of the
annual approval process for ongoing and planned construction
projects.

The Office of the Associate Deputy Secretary for Field
Management agreed with the recommendation but expressed
concern that the specific examples used in our analysis were
no longer relevant. The Office of Energy Research disagreed
with the recommendation stating that it puts the demonstration
of mission need in the wrong place. Energy Research stated
that the program manager, not the field project manager, is in
the best position to determine and document mission need. We
believe that the Energy Research position does not address
subsequent changes which may effect the need for a project.

We were also provided data on recent actions and initiatives
to improve the Department's approval process for construction
projects. We recognize that management has initiated a number
 of process improvements that are designed to enhance the
 construction planning process and that it has canceled and
 downsized many construction projects.

 However, many of the Department's initiatives have not been
 fully implemented or tested and their effectiveness cannot be
 evaluated at the present time. Because of the magnitude of
 the Department's construction program, we believe that the
 Department's managers, both in the field and at Headquarters,
 need to maintain a vigilant attitude.


                                     (Signed)

                                John C. Layton
                                Inspector General

 Attachment

 cc:   Deputy Secretary
       Under Secretary
       Assistant Secretary for Environmental Management
       Assistant Secretary for Defense Programs
       Director, Office of Energy Research
       Associate Deputy Secretary for Field Management
       Director, Office of Project and Fixed Asset Management



                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES

        SPECIAL REPORT ON THE AUDIT OF THE MANAGEMENT OF
           DEPARTMENT OF ENERGY CONSTRUCTION PROJECTS


Audit Report Number:   DOE/IG-0398

INTRODUCTION

     The Department of Energy's Fiscal Year 1996 budget
submission of about $18 billion included approximately $1.1
billion for construction projects. Ensuring that these
construction projects meet bonafide existing or future
Departmental needs becomes increasingly important as the
Department's missions evolve. Several of the Department's
original core missions, including the development and testing
of nuclear weapons, are being replaced by environmental cleanup
and commercial applications of science. At the same time, the
Department's organizational structure and processes are
changing as management moves to downsize and implement
reinvention initiatives.

     In 1994 and 1995, the Office of Inspector General issued
several reports on the Department's construction activities.
The reports expressed concerns about the construction planning
process and questioned whether planned construction was
necessary to meet mission needs. The reports also pointed out
that the Department did not ensure that originally identified
needs were still valid several years after a project's
conception. Although the problems identified were at single
locations, the magnitude of the construction program and the
length of the planning process created a potential for the
recurrence of similar problems. These audit reports are
summarized in Attachment A to this report.

     While Departmental management did not agree with all
aspects of the audit reports, it canceled or downsized several
of the construction projects. Also, we recognize that
management has initiated a number of process improvements that
are designed to enhance the construction planning process. The
purpose of this report is to synthesize issues from these prior
reports to assist management in focusing process improvement
efforts to avoid construction of unneeded or oversized
facilities.

BACKGROUND

     The Department and the Comptroller General define mission
as the responsibilities assigned by law to a specific agency to
meet national needs. Missions are expressed in terms of
specific purposes to be served which, by law, are the
responsibility of that agency. A project is considered to meet
a mission need if the facility to be constructed is necessary
to accomplish the Department's program responsibilities.

     The Department is going through a period of rapid
transformation with changes in requirements for facilities to
support program responsibilities. Priorities have changed from
weapons production to reducing weapons stockpiles, dismantling
weapons, ensuring the continued viability of the enduring
stockpile (i.e. stockpile stewardship and management), and
disposing of waste. These new priorities come at a time of
increasing attention to cutting the cost and size of
Government. Ensuring that ongoing or planned construction
projects will meet mission needs becomes more important because
of these changes.

     Headquarters program elements are responsible for overall
program policy and planning, budget preparation, and broad
program direction including oversight of project planning and
management, which includes the engineering and construction
process. Field organizations are responsible for implementing
these program activities and supporting the Headquarters
programming and budgeting process. The field project manager
has primary responsibility for execution of projects from
conceptual design through construction completion. The Office
of the Associate Deputy Secretary for Field Management
coordinates among the program offices and field elements to
support the Department's project planning, management process,
and the construction process.

     A specific objective of the planning process is to ensure
that construction projects are needed to support the mission of
the organization and are cost effective. In initially
establishing the mission need and developing the conceptual
design for the project, the planning process requires program
managers to identify and evaluate alternatives to satisfy the
identified need. As part of the approval process, Departmental
Orders 4700.1 and 430.1 both require the program manager and
the project manager to (1) verify that planned construction is
necessary to meet a valid mission need; (2) independently
identify and consistently evaluate all competing project
alternatives; and (3) reassess the need for planned
construction projects when significant events occur such as a
mission change, program redirection, or program downsizing.

     In addition, the annual budget process requires a review
of each project, including projects already under construction,
for which funding is requested. Project data sheets prepared
by Headquarters in coordination with field offices during the
budget process are used to justify the need for proposed or
ongoing projects. These sheets must be accurate and up-to-date
and reflect mission changes because they are used during
Department, Office of Management and Budget, and congressional
budget reviews. Informed decisions on mission needs cannot be
made without current, complete, and accurate data.

CONSTRUCTION PLANNING PROCESS

     The Department's construction plans were not always
updated to reflect emerging program and mission changes
resulting in the potential construction of unneeded or
oversized facilities. Office of Inspector General reports
issued in 1994 and 1995 identified recurring problems when
changes in mission needs were not fully considered in initially
approving funding of new or continuing funding of ongoing
construction projects. In addition, these reports identified
instances where viable alternatives to the construction of new
facilities were not fully considered. The reports, which
identified opportunities for the Department to reduce spending
on unneeded or oversized facilities, are summarized in
Attachment A to this report.

Changing Mission Needs

     Analysis of these reports showed that construction plans
were not always reassessed when mission needs changed.
Examples follow:

       In February 1994, our report on the "Audit of the Y-12
     Construction Program" showed that the contractor's long-term
     construction plan was based on assumptions that may not be
     compatible with the known future mission of the facility.
     Subsequent to the audit, management reassessed ongoing
     construction giving consideration to the Y-12 Plant's changing
     mission and deleted $53 million of ongoing construction
     projects.

       In May 1994, our report on the "Audit of the Uranium
     Solidification Facility at the Savannah River Site" showed that
     the Department continued to construct the facility even though
     its need to process liquid uranyl nitrate had significantly
     diminished when the reactor generating this liquid was placed
     in cold standby. The Department saved about $71 million by
     suspending construction of the facility.

       In October 1995, our report on the "Audit of Construction
     of an Environmental, Safety, and Health Analytical Laboratory
     at the Pantex Plant" showed that the Department planned to
     construct the laboratory even though its mission requirements
     were being satisfied either at onsite or commercial
     laboratories. Construction had been approved because the
     Department relied on justifications that were not updated and
     were, therefore, inadequate. We recommended, and management
     agreed, that additional funding be suspended until the need was
     clearly established and a cost-benefit analysis performed.
     Management later canceled this construction project and saved
     about $8 million.

Viable Alternatives

     There were also several cases where projects were not
needed or alternatives to construction were not fully evaluated
prior to proceeding with construction of new facilities.
Examples follow:

       In April 1995, our report on the "Audit of the Department
     of Energy's Environmental Molecular Sciences Laboratory" showed
     that the Office of Energy Research had not evaluated all
     practical alternatives before initiating construction of the
     proposed facility that was expected to cost about $230 million
     when fully equipped. We recommended that the Department
     reevaluate the project to determine if there were less costly
     but equally effective alternatives that would meet mission
     needs. Management did not concur with our recommendation.

       In October 1995, our report on the "Audit of Construction
     Management at the Idaho National Engineering Laboratory"
     identified five construction projects totaling over $4 million
     that were not needed and two others totaling $38 million that
     were oversized by a combined $22 million. The Operations
     Office management expects to save about $26 million by
     reassessing the need for and size of construction projects.

FACTORS AFFECTING CONSTRUCTION PLANNING PROCESS

     Although the problems identified by the prior reports were
at single locations, the size of the construction program and
the length of the planning process could result in the
recurrence of similar problems. We attempted to analyze the
broader institutional impediments that were affecting
appropriate construction project planning. While a myriad of
concerns were raised, we noted that the extended elapsed time
between identification of mission need and actual construction
often encompassed significant program and/or mission changes.
This was obvious given the Department's mission changes
resulting from the changing geopolitical situation and its
impact on the need for additional weapons production and other
streamlining efforts at various Department facilities. The
extended elapsed time situation necessitates that field
managers evaluate and document continued mission needs and that
Headquarters program managers use this information to avoid
expenditures for unneeded facilities.

     Past Office of Inspector General audits disclosed
instances where field project managers did not effectively
reevaluate and document continuing mission needs in the face of
mission changes. Without this documentation, Headquarters
program managers could not reassess mission needs. Further, we
noted that the annual budget validation process did not provide
information to facilitate Headquarters program offices' review
of mission reassessments. Without documentation that there is
a continued mission need, higher-level management cannot
effectively evaluate this assertion in the budget validation
process.

     For the 18 Defense Programs, Energy Research, and
Environmental Management projects that were approved for
initial construction funding in the Fiscal Year 1996 budget
submission to the Congress, the elapsed time between the
initial approval of mission need and the estimated date
construction was to begin ranged from 2 to more than 7 years.
For example, one Defense Programs construction project was
approved in 1989 as meeting mission needs. Construction was
not expected to start, however, until July 1997, about 8 years
later. Another construction project within Environmental
Management was approved as meeting mission needs in October
1991. Construction was not expected to start, however, until
December 1997, more than 6 years later. Some larger projects
that were funded incrementally each year took several years to
complete after construction was started. From our limited
review at the Headquarters program offices, we did not find
documentation to indicate that there was a methodical process
to periodically evaluate the continuing need for these
projects.

     The annual budget validation process did not require the
field project manager to prepare documentation to show the
extent to which the mission need was reassessed. For example,
the process required that the original mission need be
documented but did not require that an annual recertification
of mission need be performed. However, the statement on the
project data sheet that a mission need exists did not include
supporting documentation for Headquarters to use to examine the
basis for this assertion. Documentation of the need would
facilitate a review at the Headquarters level where the
strategic or long-range plans for the facility could be
considered in relation to available facilities at other
locations. Without documentation to clearly show that a
continued need will exist for the ongoing or planned
construction projects, higher-level management cannot evaluate
this assertion.
     In the future, the Department's construction planning
process will continue to be impacted by moves to downsize the
weapons production complex. This point is illustrated by the
Department's February 1996 "Draft Programmatic Environmental
Impact Statement for Stockpile Stewardship and Management"
(DOE/EIS-0236), which suggests alternatives for downsizing and
consolidating facilities and operations. The alternatives for
the Pantex Plant would downsize and consolidate facilities,
switch weapons disassembly to the Nevada Test Site, and reduce
future construction needs.

IMPROVEMENTS INITIATED BY MANAGEMENT

     The Office of the Associate Deputy Secretary for Field
Management was aware of prior reports and recognized that
opportunities existed to improve the construction planning
process. A number of actions were in process or planned to
streamline the construction planning and approval process.

     Under management streamlining of the construction planning
process, Departmental Order 4700.1, "Project Management System"
is to be replaced by a greatly condensed Departmental Order
430.1, "Life Cycle Asset Management." This new order will not
affect existing contracts until site specific performance
measures are established as part of the respective management
and operating contracts. To assist Departmental elements in
implementing this Order, the Office of Field Management issued
a Good Practice Guide to Critical Decision Criteria in August
1995. This guide provides information to help the user follow
a systemic process to reassess programmatic needs on projects
prior to conceptual design and construction phases. This
reassessment is intended to ensure that projects are adequately
justified.

     In addition to streamlining the construction planning and
approval process, management advised that several other
initiatives were being implemented.

       The critical decision process was being revamped to
     facilitate a systematic, disciplined reassessment of mission
     justification on all projects at various levels of authority.
     The revamped process was in the final state of development and,
     when released, the guidance was expected by management to
     define the decision process for large projects. The guidance
     will require equivalent processes using a graded approach for
     smaller projects.

       During February 1996, the major Program Offices (Defense
     Programs, Energy Research, Environmental Management, and
     Civilian Radioactive Waste Management) consolidated their
     project management requirements into one common document. This
     document, "Joint Program Office Direction on Project
     Management," was intended to provide operating offices a single
     source for program direction on projects, including mission
     need justification.

       Another initiative covered the Department's compliance
     with the Government Performance and Results Act and the related
     program strategic planning governed by OMB Circular No. A-11.
     Under this initiative, the Department will be required to
     justify the mission need for each budget line item (including
     line-item projects) at least once every 3 years as part of the
     budgeting process. To address these requirements, an annual
     project validation process improvement team led by the Office
     for Field Management was being formed to ensure its
     implementation in the Fiscal Year 1999 budget process.

       In addition, the Office for Field Management inserted into
     the Corporate Budget Call a requirement that the Program
     Secretarial Officers certify that cost-benefit analysis have
     been done for each proposed new construction project. This is
     to ensure program and project managers that there are no
     existing Department facilities that can meet their mission
     needs more efficiently and effectively.

     Further, Energy Research, Defense Programs, and
Environmental Management have taken steps to provide for
reassessment of projects and thus eliminate construction of
unneeded or oversized projects. Management informed us that,
as a result of these initiatives, the Department has canceled,
descoped, or downsized a large number of projects and saved
significant sums of money.

     We concluded that the actions taken or initiated are
positive steps. However, senior management recognized that the
streamlined Order 430.1 as supplemented would not provide
information to facilitate effective Headquarters program office
reviews of reassessments that were made. The Order did not
specifically require field project managers to document the
reassessments of mission need, which were to be made under both
the annual program review and the annual budget validation
process. Also, although additional emphasis was to be placed
on reassessment of mission needs, specific responsibility was
not assigned for this action.
RECOMMENDATION

     We recommend that the Department's Associate Deputy
Secretary for Field Management, in coordination with program
offices and field elements, emphasize the need for effective
evaluations by field project managers of the Department's
current and future mission needs as part of the annual approval
process for ongoing and planned construction projects.

MANAGEMENT REACTION

     The Director, Office of the Associate Deputy Secretary for
Field Management, responded to the initial draft report. The
report was revised to incorporate this response and meetings
were held with management officials to discuss the revised
report. On November 4, 1996, management provided comments on
the revised report and, with the exception of the Office of
Energy Research, agreed with the recommendation. Management
also provided detailed comments on recent Departmental actions
to improve the approval process for construction projects.
     Management Comments. The Director, Office of the
Associate Deputy Secretary for Field Management, stated that
the report's conclusions primarily relied on an analysis of six
Office of Inspector General reports issued in 1994 and 1995.
Because the report was based upon those previously released
reports, he expressed the belief that the findings did not
reflect recent actions taken by the Department to integrate
project mission needs with program goals as a way of doing
business.

     For example, on February 9, 1996, the Office for Field
Management issued its FY 1998 Project Review/Validation
Guidance. This guidance delegated responsibility for ensuring
that program offices validate mission needs and scope for each
project. The guidance also established the requirement for
documentation showing that each project ties to the site
development plan and the program strategic plan.

     As a result of these initiatives, the Department has
canceled, descoped, or downsized a large number of projects.
These actions resulted in significant savings for the
Department.

     Auditor Comments. We recognize that management has
revised the construction planning and approval process since
our Fiscal Year 1994 and 1995 reports. Using the Fiscal Year
1996 budget cycle, we analyzed the Department's construction
planning and approval process including the documentation of
the budget validation. This analysis, which is the basis for
our recommendation, indicated that field project managers did
not provide information to facilitate program office
assessments of continued mission need as part of the annual
approval process for ongoing and planned construction projects.
We also recognize that management has a number of actions
underway that they believe will enhance the approval process.
However, until these management initiatives are fully
implemented, we cannot determine their effectiveness in
evaluating future mission needs and documenting these needs.

     Management Comments. "The Life Cycle Asset Management
(LCAM) Order 430.1 requires that mission need be addressed for
all line-item projects prior to commencement of conceptual
design as stated in section 6.e.(7)(a). The reassessment of
the need for planned construction projects when significant
events occur is not part of the Departmental Orders 4700.1 and
430.1 per se. However, current validation guidance and project
management guides supporting Order 430.1, which have been
issued, affirm the need to perform periodic reassessments
annually and at specific critical decision points
respectively." A Critical Decision Criteria Guide, released in
August 1995, "contains a description of a systematic process
that reassesses programmatic needs on projects prior to
conceptual, design, and construction phases to ensure that
projects are adequately justified."

     Management further stated that "This process ensures the
prioritization of programmatic needs that are consistent with
programmatic mission. It is these documented needs that are
subsequently converted into new projects or adjustments to
ongoing projects by both DP Headquarters and the field."

     Auditor Comments. Although the construction approval
process requires an annual recertification of mission need for
planned projects, neither the LCAM nor the Critical Decision
Criteria Guide require the field project manager to prepare
documentation to show the extent to which the mission need was
assessed. Without knowledge of the analytical tools and
substantive findings supporting the annual recertification of
mission need, Headquarters program officials may not have
enough data to make informed decisions on the use of
Departmental construction funds. Also, the Critical Decision
Criteria Guide recommends an approach; it is not a mandatory
requirement.

     Management Comments. Energy Research disagreed with the
recommendation and stated that it put the burden of
demonstrating mission need in the wrong place because the
Headquarters and field program managers should demonstrate
mission need. For major projects, approval of mission need is
required by the Department to carry out the conceptual design.
It is up to the program to convince the Department that a
project is needed to meet mission need and then to make the
case to find the necessary resources to execute the project.
The field project manager's primary task is to see that the
project is executed once the resources for the project are
provided. Obviously, the program manager and the project
manager are members of a team that needs to work closely
together for the project to be carried out successfully.

     Given this, the statement throughout the report that the
field project manager is in the best position to determine and
document mission need is incorrect. The report should be
changed to state that the program manager, not the field
manager, fulfills this role.

     Auditor Comments. The Energy Research position does not
address one of the key factors impacting the construction
planning process. That is, there is an extended period of time
between the completion of the conceptual design and the actual
construction of the project. This extended elapsed time
situation necessitates that field project managers evaluate and
document continued mission needs. Without this effort by the
project manager, the Headquarters program manager does not have
the data needed for the optimum evaluation of mission need.
The auditor's position was supported by the Office for Field
Management.

     Management Comments. It is FM-20's position that, while
all line item projects should initially be approved by the
sponsoring Headquarters program office, the annual assessment
of continued mission need may be done at the field level taking
into consideration such factors as site comprehensive planning,
particularly on infrastructure-type projects.
     Auditor Comments. Management's comment is considered
responsive to the recommendation.

      Management Comments. Comments provided by Defense
Programs and Environmental Management agreed with the
recommendation. Management stated that the recommendation had
been:

   "addressed by Section 7.e.(3) of that Life Cycle Asset
   Management (LCAM) Order, DOE 0 430.1. This section
   states that field elements responsibilities include the
   need to: 'Obtain necessary approvals for projects from
   the sponsoring program offices including mission need and
   project baselines, as appropriate.' In addition, section
   6.e.(5) of the LCAM order requires that the process for
   physical asset acquisitions be an integrated approach
   that includes the consideration of current mission needs
   and an appropriate scope."

Management provided a sample of 63 projects that were canceled,
descoped or rescoped in the last 3 years. The Joint Program
Office Direction on Project Management issued in February 1996
also directs field elements on specific requirements to be
included in the justification of mission need documentation for
all construction projects in the Department.

Further, Defense Programs stated that it is emphasizing the
importance of the Joint Program Office Direction on Project
Management by refining the process by which the field offices
coordinate planning and critical decisions with the cognizant
Headquarters program office to ensure continued mission need
and program support. Defense Programs expressed the belief
that responsibility for evaluating mission need as part of the
annual approval process for ongoing and planned construction
projects rested with the Headquarters Program Manager rather
than the Field Project Manager.

     Auditor Comments. We recognize that management has
initiated a number of improvements to its construction planning
process since our 1994 and 1995 audit reports. However, as
stated above, our analysis of the Fiscal Year 1996 annual
construction planning and approval process and the budget
validation process indicated that field project managers did
not effectively evaluate current and future mission needs as
part of the process. We believe that the field project manager
is in the best position to determine and document the mission
need for ongoing and planned construction projects. We
recognize that the field project manager could be overruled by
the Headquarters' program manager based on strategic planning
information which might not be available at the local level.




_______(Signed)_____________________
                                                       Office
of Inspector General
                                                    ATTACHMENT A

              SUMMARY OF INDIVIDUAL AUDIT REPORTS


Audit of the Y-12 Construction Program, CR-BC-94-02, February
14, 1994

     The Y-12 Plant is a facility that has been a major
materials production and component manufacturing site in the
Department's nuclear weapons complex. With the cessation of
nuclear weapons production, the Department took action to
revise its plans for modernizing the complex. As part of this
planning process, the Department was scheduled to decide on the
size and structure of the future weapons complex by December
1994. In the meantime, the sites that could be affected by the
decision were to limit construction activities to what was
necessary to sustain current operations and comply with
environmental, safety, and health requirements.

     We reported that construction planning for the Y-12 Plant
was based on assumptions that could be incompatible with known
future missions. Needs were not reassessed when the Plant's
mission changed to determine if construction projects should be
continued, deferred, terminated, downsized, or suspended. We
recommended that the Department reassess ongoing and planned
construction projects and make appropriate adjustments to
ensure compatibility with current and future missions.
Subsequent to the audit, management reassessed ongoing Y-12
construction and deleted $53 million of ongoing projects.

Audit of the Uranium Solidification Facility at the Savannah
River Site, DOE/IG-0349, May 25, 1994

     In the late 1980s, the Department decided to construct a
Uranium Solidification Facility at the Savannah River Site to
process liquid uranyl nitrate into powder. The Department
anticipated a continuing need to process the liquid uranyl
nitrate that was generated by processing spent fuel from
reactor operations. However, because of decreasing
requirements for weapons material, the Department placed the
reactor in cold standby in March 1993. When initially
conceived, the facility's estimated cost was about $60 million.
As of November 1993, the facility's estimated total project
cost had risen to $218 million, of which $147 million had
already been spent.

     We reported that the Department continued to construct a
facility to process liquid uranyl nitrate although the reactor
that produced this liquid was recently shut down. Construction
of the facility continued because the Department's procedures
did not ensure that needs for construction projects were
reassessed when significant program changes occurred.
Moreover, the audit identified more economical alternatives for
processing existing quantities of liquid uranyl nitrate that
could cost significantly less than the $71 million needed to
complete the facility. We recommended that the Manager,
Savannah River Site, immediately reevaluate the project by
exploring transportation and processing alternatives to safely
and cost effectively eliminate the current inventory of liquid
uranyl nitrate, while holding project costs at a minimum during
the reevaluation.

     The Department concurred with our recommendation and saved
about $71 million by suspending construction. In addition, the
Savannah River Site Manager reported that the contractor had
been directed to "pursue vigorously" the evaluation of
alternatives to identify the safest and most cost-effective
method of treatment of uranyl nitrate.

Audit of the Department of Energy's Environmental Molecular
Sciences Laboratory, DOE/IG-0371, April 7, 1995

     The Department is responsible for examining all options in
acquiring major systems to ensure that funds and existing
facilities and equipment are used effectively. The audit
objective was to determine whether the Office of Energy
Research had evaluated all practical alternatives in building
and equipping the proposed Environmental Molecular Sciences
Laboratory which was estimated to cost about $230 million.
Although research at the Department's laboratories had been
declining, Energy Research did not consider using them as an
alternative to constructing a new laboratory and procuring
equipment for it. If Energy Research had fully evaluated
existing alternatives within the Department's complex, it might
have identified available, unused facilities appropriate for
its research mission. While structural modifications might
have been necessary, the available alternatives may have cost
less than the estimated $230 million for the research
laboratory. Further, such action could have resulted in better
utilization of existing laboratories and equipment.

     The audit report showed that all practical alternatives
were not evaluated as required by Departmental orders before
proceeding with construction of the new laboratory. Although a
contractor had conducted a site study in 1987, the study only
considered sites at one location. By not evaluating
alternative sites, the Department may have missed the
opportunity to not only avoid spending a significant amount of
the $230 million, but also an opportunity to more effectively
utilize existing national laboratories and equipment at other
locations. We recommended that the Department reevaluate the
project to determine if there were less costly but equally
effective alternatives to new construction. Management did not
concur with our recommendation and maintained that there were
no practical or less cost alternatives to the construction.

Audit of Construction of Protective Force Training Facilities
at the Pantex Plant,
WR-B-95-06, May 5, 1995

     A goal of the Department's project management system is to
ensure that projects are necessary to fulfill mission needs and
are cost effective. This requires the Department to justify
each project and explore competitive alternatives.

     Our audit found that construction of a $2.6 million
physical training facility at the Pantex Plant was not
necessary to fulfill mission needs, and the Department did not
consider all viable alternatives to constructing a $5.7 million
weapons tactics and training facility. We recommended that the
Department cancel construction of the physical training
facility, make needed repairs and upgrades to the existing
facilities, and reduce the cost of the Security Enhancement
Major System Acquisition accordingly.

     Projected net savings for canceling the construction was
about $1.7 million. Management did not agree to cancel
construction of the physical training facility, but agreed to
perform economic analyses of alternatives before proceeding
with the project.

Audit of Construction of an Environmental, Safety, and Health
Analytical Laboratory at the Pantex Plant, WR-B-96-02, October
6, 1995

     The Department planned to construct a laboratory at Pantex
to meet mission requirements that were already being satisfied
either at onsite laboratories or commercial laboratories.
Construction of the laboratory was approved because the
Department relied on justifications that were not updated.
Furthermore, required evaluations of alternatives were either
not performed or not documented. The field site had not
reevaluated its need for the laboratory after the Department
began to downsize the weapons complex. As a result, the
Department planned to spend an additional $8.4 million on a
laboratory that was not adequately justified as necessary, that
may compete with private sector laboratories, and that may not
provide a sufficient appearance of independence. We
recommended, and management concurred, that additional project
funding be suspended until the need was clearly established and
cost-benefit analyses performed and that the project be
canceled if the laboratory is not justified.

Audit of Construction Management at the Idaho National
Engineering Laboratory,
WR-B-96-03, October 18, 1995

     The Department's streamlining efforts, coupled with
established policy, required the Idaho Operations Office to
ensure that all construction projects were needed to support
the Laboratory's mission and were cost effective. Our audit
identified seven ongoing projects, totaling over $40 million,
that were either not needed or larger than needed. This
situation occurred because the Idaho Operations Office either
did not document or did not perform an independent
verification, evaluation, and reassessment of the need for the
projects. We recommended that the Idaho Operations Office
review construction project plans and cancel those that did not
support the laboratory's mission and reassess the need for and
size of construction projects when significant events occur.
Management concurred and initiated action to implement the
recommendations. The Department expects to save about $26.4
million by these actions.
                                                   ATTACHMENT B


SCOPE AND METHODOLOGY

     The audit was conducted from May through November 1995 at
Headquarters, Department of Energy. We obtained and reviewed
justifications for additional funding for projects under
construction or for proposed construction projects submitted by
field offices to three Headquarters program offices.

     To accomplish the audit objective, we reviewed:

       Office of Management and Budget Circular A-109 and
     Departmental regulations and guidance concerning management and
     control of construction projects;

       the construction planning and approval process in three
     program offices;

       budget validation documentation for the Fiscal Year 1996
     budget cycle;

       planned construction project documentation such as
     conceptual design reports and original project justifications;

       reports issued by the General Accounting Office; and

       interviewed key Departmental officials in the Offices of
     Defense Programs, Energy Research, Environmental Management,
     and Office of Field Management.

     We also reviewed audit reports issued by the Office of
Inspector General in 1994 and 1995. Recognizing that some of
the problems identified at specific locations may have been
addressed, we concentrated on recurring conditions to identify
the actions necessary by the Department to correct the
underlying causes.

     Our review of the construction justification and approval
process in Defense Programs, Energy Research, and Environmental
Management included discussions with responsible Headquarters
program and budget staff and reviews of each office's policies
and procedures for approving construction projects. Our audit
effort concentrated on documentation available at Headquarters
and included both the program planning process and the budget
validation process for construction projects.

     In analyzing the construction program planning process, we
compared and contrasted the practices and procedures used by
the three Headquarters program offices. We analyzed the
different methods and factors used to rank and prioritize the
current and future construction projects at both the field
offices and the Headquarters program offices. Particular
attention was given to documentation that discussed
consideration of alternative facilities or downsizing of
planned facilities as a result of program or mission changes.

     In analyzing the budget validation process, we examined
the procedures followed to obtain additional funding for
ongoing and future projects. Emphasis was placed on
determining what information was available to the individual
performing the budget validation. In addition, we reviewed the
documentation of any revalidations that were performed between
the initial validation of projects and their approval by the
Congress.

     Although prior reports covered both large and small
construction projects, our review of the planning process
focused on projects with total estimated costs below $100
million. These projects totaled about $680 million of the
Departmentms $1.1 billion Fiscal Year 1996 construction budget
submission. Of this amount, about $155 million was for Defense
Programs projects, $360 million was for Environmental
Management projects, and $111 million was for Energy Research
projects. The remaining $55 million was for various
construction projects within the Offices of Energy Efficiency,
Nuclear Energy, and Fossil Energy.

     Using the information gathered about the construction
justification and approval process, we analyzed the recurring
problems identified by the prior reports and the impact of
actions taken to address specific causes. Because the prior
reports addressed the need to reassess specific projects to
ensure a continuing current or future need plus other issues,
we looked at the effectiveness of the actions taken to preclude
potential recurrences of similar problems. Specific attention
was given to documentation of requirements of continuing
mission needs as part of the annual reviews of ongoing or
planned projects.

     The audit was made in accordance with generally accepted
Government auditing standards for performance audits and
included tests of internal controls and compliance with laws
and regulations to the extent necessary to satisfy the
objectives of the audit. We limited the review of internal
controls to the planning and approval process for construction
projects and did not rely extensively on computer-generated
data to develop this report. Because our review was limited,
it would not necessarily have disclosed all internal control
deficiencies that may have existed.

     An exit conference was waived by the Office of the
Associate Deputy Secretary for Field Management (FM-50).
                                IG Report No. DOE/IG-0398



                    CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest
in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our
customers' requirements, and therefore ask that you
consider sharing your thoughts with us. On the back of
this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers
to the following questions if they are applicable to you:

     1.   What additional background information
          about the selection, scheduling, scope, or
          procedures of the audit or inspection would
          have been helpful to the reader in
          understanding this report?

     2.   What additional information related to
          findings and recommendations could have
          been included in this report to assist
          management in implementing corrective
          actions?

     3.   What format, stylistic, or organizational
          changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of
          Inspector General have taken on the issues
          discussed in this report which would have been
          helpful?

Please include your name and telephone number so that we
may contact you should we have any questions about your
comments.

Name ____________________________
Date_____________________

Telephone _______________________
Organization_____________

When you have completed this form, you may telefax it to
the Office of Inspector General at (202) 586-0948, or you
may mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
